Docket No. ____
IN THE SUPREME COURT OF THE UNITED STATES
________________________
REZA OLANGIAN,
Petitioner,
– against –
UNITED STATES OF AMERICA,
Respondent.
________________________

PETITION FOR WRIT OF CERTIORARI
________________________

On Certiorari to the United States Court of Appeals
For the Second Circuit
________________________

JONATHAN I. EDELSTEIN
EDELSTEIN & GROSSMAN
501 Fifth Avenue, Suite 514
New York, NY 10017
Tel.: (212) 871-0571
Fax: (212) 922-2906
Email: jonathan.edelstein.2@gmail.com

Counsel of Record

STATEMENT OF QUESTIONS PRESENTED
1.

Is a defendant deprived of a fair trial when government witnesses are

invited to comment on his credibility and candor, and when he in turn is asked to
comment on their truthfulness?
2.

Where an uncalled witness in a foreign country is a long-term government

informant with whom the government was still in contact at the time of trial, and
where defense counsel was unable to contact or speak to him, is it error for the trial
court to instruct the jury that the witness is equally unavailable to both sides?

-i-

PARTIES TO THE PROCEEDING
The parties to the proceeding are the United States of America and petitioner
Reza Olangian.

-ii-

TABLE OF CONTENTS
Statement of Questions Presented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Parties to the Proceeding . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
Table of Contents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
Opinions Below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vi
Jurisdictional Statement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii
Constitutional Provisions and Statutes at Issue . . . . . . . . . . . . . . . . . . . . . . . . . . viii
Statement of Facts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Reasons for Granting the Writ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
I. IT IS A DEPRIVATION OF A FAIR TRIAL WHEN
THE PROSECUTION ASKS THE DEFENDANT
AND GOVERNMENT WITNESSES TO COMMENT
ON EACH OTHER’S CREDIBILITY AND CANDOR . . . . . . . . . . . . 14
II. WHERE AN UNCALLED WITNESS IS A LONGTERM GOVERNMENT INFORMANT AND AN
IMBALANCE IN THE ABILITY TO CONTACT
HIM EXISTS, AN “EQUALLY UNAVAILABLE”
INSTRUCTION SHOULD NOT BE GIVEN . . . . . . . . . . . . . . . . . . . 20
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Appendix . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 1
Second Circuit Opinion dated May 5, 2020 . . . . . . . . . . . . . . . . . . . . . . . App. 1

-iii-

TABLE OF AUTHORITIES
Cases:
Greer v. Miller, 483 U.S. 756 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12,17,19
United States v. Abad, 514 F.3d 271 (2d Cir. 2008) . . . . . . . . . . . . . . . . . . . . . . . . 23
United States v. Adeniji, 31 F.3d 58 (2d Cir. 1994) . . . . . . . . . . . . . . . . . . . . . . . . 13
United States v. Aquart, 912 F.3d 1 (2d Cir. 2018) . . . . . . . . . . . . . . . . . 12,14,15,16
United States v. Bell, 531 Fed. App'x 117 (2d Cir. 2013) . . . . . . . . . . . . . . . . . . . . 15
United States v. Caccia, 122 F.3d 136 (2d Cir. 1997) . . . . . . . . . . . . . . . . . . . . . 21,22
United States v. Ebbers, 458 F.3d 110 (2d Cir. 2006) . . . . . . . . . . . . . . . . . . . . . . . 13
United States v. Gaskin, 364 F.3d 438 (2d Cir. 2004) . . . . . . . . . . . . . . . . . . . . . . . 13
United States v. Henry, 47 F.3d 17 (2d Cir. 1995) . . . . . . . . . . . . . . . . . . . . . . . . . 15
United States v. McCarthy, 54 F.3d 51 (2d Cir. 1995) . . . . . . . . . . . . . . . . . . . . . . 13
United States v.Olangian, 803 Fed. App’x 536 (2d Cir. 2020) . . . . . . . . . . . . . . . . . vi
United States v. Pujana-Mena, 949 F.2d 24 (2d Cir. 1991) . . . . . . . . . . . . . . . . . . 12
United States v. Richter, 826 F.2d 206 (2d Cir. 1987) . . . . . . . . . . . . . . . . . . 13,15,16
United States v. Sorrentino, 72 F.3d 294 (2d Cir. 1995) . . . . . . . . . . . . . . . . . . . . 23
United States v. Torres, 845 F.2d 1165 (2d Cir. 1988) . . . . . . . . . . . . . . . . . . . . . . 21
United States v. Truman, 688 F.3d 129 (2d Cir. 2012) . . . . . . . . . . . . . . . . . . . . 15,16
Statutes and Rules:
U.S. Const. Amend. 5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . viii
18 U.S.C. § 2332g . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

-iv-

28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii
50 U.S.C. § 1701 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

-v-

OPINIONS BELOW
United States v.Olangian,
803 Fed. App’x 536 (2d Cir. 2020)
Decision: May 5, 2020

The decision of the Court of Appeals was an affirmance of the conviction and
sentence imposed by the United States District Court for the Southern District of New
York (Hon. Loretta A. Preska, J.), entered March 14, 2018, upon a jury verdict
adjudging Petitioner guilty of conspiracy to acquire and transfer anti-aircraft missiles,
attempt to acquire and transfer anti-aircraft missiles, conspiracy to violate the
International Emergency Economic Powers Act (“IEEPA”), and attempt to violate the
IEEPA, and sentencing Petitioner to concurrent prison terms totaling 25 years.

-vi-

JURISDICTIONAL STATEMENT
This Court has jurisdiction pursuant to 28 U.S.C. § 1254(1) in that this is a
petition for certiorari from a final judgment of the United States Court of Appeals for
the Second Circuit in a criminal case. The instant petition is timely because the
Second Circuit’s decision affirming Petitioner’s conviction and sentence was issued on
May 5, 2020, less than 90 days before the filing of this Petition. There have been no
orders extending the time to petition for certiorari in the instant matter.

-vii-

CONSTITUTIONAL PROVISIONS AND STATUTES AT ISSUE

U.S. Const. Amend. 5
No person shall be held to answer for a capital, or otherwise infamous crime, unless
on a presentment or indictment of a grand jury, except in cases arising in the land or
naval forces, or in the militia, when in actual service in time of war or public danger;
nor shall any person be subject for the same offense to be twice put in jeopardy of life
or limb; nor shall be compelled in any criminal case to be a witness against himself, nor
be deprived of life, liberty, or property, without due process of law; nor shall private
property be taken for public use, without just compensation.

-viii-

STATEMENT OF FACTS
On October 19, 2012, a four-count indictment was lodged against Petitioner Reza
Olangian in the United States District Court for the Southern District of New York.
(A26-34). The indictment charged Mr. Olangian with conspiracy to acquire and
transfer anti-aircraft missiles in violation of 18 U.S.C. § 2332g; attempt to acquire and
transfer anti-aircraft missiles; conspiracy to violate the International Emergency
Economic Powers Act ("IEEPA"), 50 U.S.C. § 1701 et. seq.; and attempt to violate
IEEPA. (A26-34).1 The gravamen of the charges was that Mr. Olangian, a dual
Iranian and American citizen residing in Tehran, attempted to purchase Russian-made
IGLA-S anti-aircraft missiles on behalf of the Iranian government in violation of
American and international sanctions.
Petitioner notes that the sole basis for the district court's criminal jurisdiction
in this case was his American citizenship. At the time of the alleged offenses, Mr.
Olangian had resided in Tehran for years, all the conduct that allegedly constituted
such offenses took place in Iran, Ukraine, and/or Estonia, and the purported source of
the missiles was Russia. Any other Iranian citizen performing or attempting to
perform the same acts could not have been charged in an American court, and only Mr.
Olangian's dual citizenship allowed the Government to do so in this case.
At trial, the historical facts were largely undisputed. Mr. Olangian did not deny
making the great majority of communications the Government alleged that he made,

Citations to “A” refer to the appendix on appeal in the Second Circuit, a copy
of which will be provided upon request.
1

-1-

nor did he deny taking part in recorded meetings and conversations with undercover
Government informants. His defense was instead that he did not intend to follow
through with the IGLA-S missile deal, and that he was instead a dissident who
opposed the Iranian regime and wanted to embarrass the government of Iran by
implicating it in a plot to violate international sanctions. Although the Government
claimed that this defense was farfetched, it was in fact - as will be discussed infra corroborated by contemporaneous photographs and documents, admitted into evidence,
showing that Mr. Olangian was in fact opposed to the Iranian government and had
been part of a protest movement.
The Government's case at trial was offered primarily through three categories
of witnesses. The key witness, Max Buchinsky, was a paid informant of Russian origin
who was tasked by the DEA with conducting undercover communications with Mr.
Olangian. He testified in detail concerning how he made contact with Mr. Olangian,
engaged in communications with him via email, telephone and text messages, and
arranged a series of meetings at a hotel in Kiev. These meetings, which Mr. Buchinsky
attended along with another paid DEA informant named Muboriz (also spelled
"Muboritz" in some parts of the trial transcript)_, were recorded by audio and video.
(A439-698). The defendant did not dispute the acts and communications to which Mr.
Buchinsky testified.
Additionally, computer specialists Christine Seidsma (A335-438), Jill Mossman
(A703-34) testified to their examination of various electronic devices, storage devices
and email accounts recovered from defendant, and DEA agent Joseph Catalano
-2-

(A828-67) testified concerning certain airline tickets and concerning specific documents
recovered from the devices and email accounts. The communications to which they
testified were also undisputed.
The remaining leg of the Government's case consisted of the testimony of DEA
Special Agents Jeffrey Higgins and Derek Odney. Agent Higgins testified concerning
the circumstances leading up to the investigation - confirming, inter alia, that Muboriz
was the informant who initially brought Mr. Olangian to the DEA's attention (A84, 87)
and that he directed first Muboriz and then Max Buchinsky to set up communication
with Mr. Olangian and arrange meetings with him (A89) - and described the
arrangements he made with Muboriz and Mr. Buchinsky to conduct the undercover
communications and meetings (A89-186).

Agent Higgins' investigation included

numerous interviews and meetings with Muboriz which were conducted via a
translator. (A90, 251), and Muboriz was the one who sent many of the initial emails
to the defendant (A96-108, 166-67), whose email account was provided to the
Government (A250-51), and who attended the undercover meetings (A251).
Agent Higgins also testified extensively concerning interviews that he and Agent
Odney conducted with Mr. Olangian after they lured Mr. Olangian to Tallinn, Estonia
on the pretext of a meeting in Russia2 and secured his arrest at the Tallinn airport.
(A187-238).

It is undisputed that, during these interviews, Mr. Olangian was

interested in cooperating with the Government. Near the close of Agent Higgins' direct

Interestingly, Mr. Olangian's passport did not show a Russian visa, which
would have been necessary had he actually planned to attend such a meeting.
2

-3-

testimony, the government elicited the following testimony as to why a cooperation
agreement was not reached:
Q.

At the conclusion of your interviews with the defendant, did the
DEA decide to pursue further cooperation with the defendant?

A.

I'm sorry. Just to clarify in all of the interviews?

Q.

Yes, in all six of -

A.

Well, we decided not to pursue cooperation.

Q.

Tell us why not?

A.

We didn't feel that the answers we were receiving were truthful
and we felt like there may be things omitted as well.

(A236).
Agent Odney likewise testified concerning his participation in the investigation,
the planning and execution of the undercover meetings, and the post-arrest interviews.
(A734-824). During his testimony, the government again elicited testimony concerning
Mr. Olangian's credibility during cooperation, asking him as follows:
Q.

And in connection with that October 31st meeting describe for us
how the defendant's demeanor appeared as compared against the
October 10th and October 11th meetings.

A.

He didn't seem as forthright. He didn't seem as he was wanting to
explain all the information in detail. He repeated a lot of what he
had said at the first meeting and we didn't obtain a lot of new
information and the people that he did talk about it was people
that we weren't able to really pursue an investigation of.

(A767-68) (emphasis added).
As a final part of the Government's case, it was stipulated between the parties
that Mr. Olangian did not possess a license or authorization issued by the United
-4-

States Department of Treasury Office of Foreign Assets Control (A827) and that
IGLA-S missiles were anti-aircraft missiles (A856-57).
Muboriz was not called as a witness on the Government's case, and the
government rested after the close of Mr. Catalano's testimony (A868).
Two witnesses testified on the defense case: Dr. Patrick Clawson and Mr.
Olangian himself. Dr. Clawson, the director of research for the Washington Institute
for Near East Policy and an expert on Iran, gave historical background concerning
Iran's recent history. (A871-80, 892-903). In particular, he discussed how the former
Shah of Iran was overthrown in the Islamic revolution of 1979, how the initial
revolutionary coalition was taken over by Ayatollah Ruhollah Khomeini who
implemented repressive religious rule, how an opening occurred after the election of
Mohammed Khatami as president in 1997, but that President Khatami's successor,
Mahmoud Ahmadinejad (who was elected in 2005) ended the reformist experiment.
(A876-80, 892-98). In 2009, President Ahmadinejad was re-elected in a vote that many
reform-minded Iranians viewed as fraudulent, leading to massive protests, known as
the Green Movement, that were violently repressed by the government. (A898-903).
Petitioner Olangian was the final witness in the case. Mr. Olangian testified
that he was born in Iran and was a dual American and Iranian citizen. (A905). In the
1950s, his mother had been arrested and imprisoned by the Shah, and his father's
nephew was imprisoned by the Shah's secret police until 1979. (A906-07). After the
revolution, his father's nephew was proscribed by the new regime and executed.
(A907-08). His brother was also arrested and beaten by the revolutionary regime in
-5-

an incident where the religious militias also beat and stabbed his mother. (A909-10).
His brother later died due to complications from this beating. (A911-12).
Mr. Olangian himself came to the United States as a student in 1979. (A912).
He initially supported the revolution but became disaffected with it due to the
repression and the Iran-Iraq war. (A914-15, 921-22). After his studies, he stayed out
of politics and became a software engineer, working for various companies and
ultimately starting his own company, and in the process getting married and becoming
a United States citizen. (A916-23).
In 2004, Mr. Olangian separated from his wife and moved back to Iran, where
he started another software company. (A923-24, 926-30). He wanted to be closer to
his family and was encouraged by the greater openness in Iranian society during the
Ahmadinejad era. (A925-26). By 2008, he developed a romantic relationship with his
secretary in this company, Banafshe, who eventually became his second wife.
(A929-30, 932-33).
Mr. Olangian described how after the 2005 election and the inauguration of
President Ahmadinejad, all the achievements of the Khatami era slipped away and
society became repressive, with religious police harassing both men and women in the
streets. (A930-31). His secretary and future wife Banafshe, who had formerly been a
journalist, was politically connected and introduced him to the Iranian opposition
movement. (A931-32).
During this period, Mr. Olangian made international business connections
through his company and visited Tajikistan to discuss various business deals.
-6-

(A933-40). He discussed these deals with Banafshe and learned that due to sanctions,
Iran was prohibited from importing certain materials, and he got the idea to take
action for the opposition, as opposed to just talking, by exposing the Iranian
government in a violation of the sanctions. (A940-44). Initially, this plan related to
a purchase of the metal osmium which is used in rockets and also included discussions
of plutonium, but the negotiations fell through. (A944-46, 949-51).
During these failed discussions, the contacts that petitioner had developed in the
Iranian Ministry of Defense expressed interest in IGLA missiles, and the idea
developed to conduct a sham IGLA deal as a sting against the Iranian regime.
(A951-67). There was no intent to actually go through with the deal. (A955-56, 964).
A copy of the sham contract prepared for the Ministry of Defense in or about August
2008 was admitted into evidence. (A958-59). This deal did not proceed to the point
of completing the sting because Mr. Olangian's connection fell through and he was
conned out of the deposit money. (A967-71).
Any further efforts to conduct a sting were interrupted by the 2009 election and
resulting protests. During the election campaign, Mr. Olangian gave the opposition the
use of his office and handed out pamphlets during street rallies. (A980-81). The
opposition, known as the Green Movement, began massive street demonstrations on
the night of the election in which Mr. Olangian and his family participated. (A981-82).
Mr. Olangian intervened to prevent the harassment of women and was attacked with
pepper spray, and his wife and son were beaten on the streets. (A983). Numerous
contemporaneous photos and videos taken by Mr. Olangian were admitted into
-7-

evidence, showing him participating in rallies with his family, documenting violence
by the security forces, and intervening to prevent harassment. (A984-91).

Mr.

Olangian further recounted that he briefly returned to California in November and
December of 2009 but that after his return on December 25, he was caught up in the
most brutal day of the protests. (A991). During this protest, he attempted to intervene
on behalf of an elderly couple, and he and his wife were beaten, resulting in him
suffering a broken wrist, injured shoulder and broken head. (A991-92).
Petitioner testified that as a result of these protests and their violent repression,
the opposition "started to expose the government as much as we could" by getting into
and exposing the government's economic activities. (A992-93). Among other things,
he wrote and attempted to publish an article concerning economic corruption in Iran,
which was admitted in evidence. (A998-99). He detailed how the political events
provided him with the motivation to get involved in other fake deals, including the
revival of the fake IGLA deal that resulted in the charges in this case. (A999-1006).
He then gave an account of the communications with Muboriz, the resulting meetings,
and post-arrest interviews with the DEA. (A1006-44).
During Mr. Olangian's cross-examination, the issue came up of whether
defendant had told the DEA agents that Yousefiy - who he had identified as a friend
of his - was from the Iranian Ministry of Defense. (A1167). Petitioner responded that
he would not have said that, to which the government responded "[s]o the agents made
that up too?" (A1167). Defendant promptly objected to this question on the ground
that it was "improper to try to impeach a witness with the prior testimony of another
-8-

witness by the way the question was asked." (A1167). After a short colloquy, however,
the court stated, "It's already in. I'll permit it. Let's go." (A1168).
On summation, the Government referred back on several occasions to Agent
Higgins' testimony regarding Mr. Olangian's credibility. During the initial summation,
the prosecutor stated:
The second thing that I want you to understand about this
is that the DEA decided not to pursue cooperation with the
defendant, and you all have now had the opportunity to see
the principal reason why the DEA decided not to work
further with the defendant. His testimony was not and is
not credible.
(A1347). Shortly afterward, the government continued, "the defendant is guilty of a
whole lot more than lying, and the reason that the DEA did not pursue cooperation
with the defendant is clear." (A1348).
During rebuttal summation, the Government again argued, "Second, remember
that the DEA decided not to cooperate the defendant because they ultimately didn't
find him credible. It was not something they could rely on, his telling the truth."
(A1401).
The trial then proceeded to the charging stage.

Earlier, at the charge

conference, defense counsel Ginsburg had raised the issue that they had requested
information from the Government concerning "at least one, if not more, of [its]
confidential sources," specifically Muboriz,3 and that an agent had "contacted him and

Muboriz' name was not mentioned in defense counsel's initial request, but later
in the colloquy, he made clear that Muboriz was the informant he was talking about.
(A889).
3

-9-

he was unwilling to speak with us." (A885). Petitioner contended that at some point
in time - including the period when discovery was ongoing - Muboriz was available to
the Government and that he had been used for source and background information
"some of which came in either directly or indirectly during the course of the trial," but
that he had never been available to the defense.

(A885-86).

The Government

responded that it was Muboriz' decision not to talk to defense counsel, and that
because Muboriz was a voluntary paid informant residing outside the United States,
"it was [their] position that he is equally unavailable to both parties." (A886-87).
Defense counsel reiterated that the Government had contact with Muboriz and
used his information during trial, which was inter alia the source of the "problem with
AK-47s and things of that nature," and that the Government "had the benefit of using
information from that witness as a sort of door-opener to other things that they then
did or said to their witness" but that the defense was only permitted to contact him
through Government agents and was unable to speak to him. (A888). Defense counsel
pointed out that if the Government had asked Muboriz to testify, it could have called
him, and therefore it was "not an equal balance." (A888). In other words, "to put a
charge in here which… suggests to the jury that [defendant] could have as easily
gotten a hold of Mr. Muboriz as the government or gained some benefit from him or
spoken to him or used information form him as the government has used is simply not
the state of play." (A889).
In response to the Government's reiteration of its position that Muboriz was a
"voluntary witness" (A890), counsel argued further that due process should not allow
-10-

the Government to maintain contact with a confidential source "up until some point
in time as we get close to trial" and then have the witness absent himself from the
United States and be unwilling to speak to the defense, it would be unfair for the court
to charge the jury that such witness was equally unavailable to both sides when in fact
one party had obtained the greater benefit. (A890-91).
The district court concluded the colloquy by stating that it would "permit the
instruction on uncalled witnesses to remain" in order to keep the jury from "think[ing]
crazy things" and because it didn't "see any prejudice because of the hearsay that was
elicited from the agent."

(A891).

Thus, when the jury was charged, the court

instructed it as follows:
There are people whose names you've heard during the
course of the trial but who did not appear here to testify. I
instruct you that all parties have an equal opportunity or
lack of opportunity to call these witnesses. Therefore, you
should not draw any inferences or reach any conclusion as
to what they would have testified to had they been called.
Their absence should not affect your judgment in any way.
(A1479).
During its deliberations, the jury sent a note requesting a readback of testimony
regarding Mr. Olangian's cooperation as well as the testimony of Agents Higgins and
Odney. (A1494). Shortly after the note was sent, the jury returned with a verdict
convicting Mr. Olangian of all counts. (A1505-06).
On March 14, 2018, the district court sentenced Mr. Olangian to the statutory
minimum prison term of 25 years on Counts One and Two and sentenced him to 20
years on Counts Three and Four, all sentences to run concurrently. (A21). Judgment
-11-

was entered on the same date (A1509-16).
Petitioner filed a timely notice of appeal (A1517). On appeal to the Second
Circuit, he argued inter alia that he was deprived of a fair trial because (i) the
prosecutor called upon Agents Higgins and Odney to comment on his credibility and
candor as well as vice versa; and (ii) the trial court improperly instructed the jury that
Muboriz was equally available to both sides when in fact he was not.
By decision dated May 5, 2020, the Second Circuit affirmed Mr. Olangian’s
conviction and sentence. (App. 1-3).4 On the issues pertinent to this Petition, the
Second Circuit stated:
On Olangian’s challenges to the testimony of the two law
enforcement officers, we do not find that the testimony
deprived Olangian of a fair trial. “When a defendant
contends that a prosecutor’s question rendered his trial
fundamentally unfair, it is important as an initial matter to
place the remark in context.” Greer v. Miller, 483 U.S. 756,
765-66, 107 S.Ct. 3102, 97 L.Ed.2d 618 (1987) (internal
quotation marks and brackets omitted). Generally, the
testimony of government witnesses “cannot be used to direct
the jury to trust the Government’s judgment rather than its
own view of the evidence.” United States v. Aquart, 912 F.3d
1, 33 (2d Cir. 2018) (internal quotation marks and brackets
omitted). But here, unlike in Aquart, Olangian’s attorney
admitted in his opening statement that, during the
post-arrest interviews, Olangian told the agents “a story
which is not completely true.” App’x at 68. In addition, the
agents’ testimony was limited to describing Olangian’s
demeanor and lack of candor during his participation in
post-arrest interviews, which was separate from his
testimony as a trial witness. See Aquart, 912 F.3d at 34; see
also United States v. Pujana-Mena, 949 F.2d 24, 33 (2d Cir.
1991) (finding no improper vouching where an agent

4

Citations to “App.” refer to the appendix to this Petition.
-12-

“testified as to a general DEA policy regarding an
informant’s veracity ... after defense counsel had repeatedly
suggested that [the agent] had not done enough to
corroborate [the informant]’s information”).
As to Olangian’s second argument, while our precedent
forecloses the government from compelling a testifying
defendant from stating that a government witness is lying,
see United States v. Richter, 826 F.2d 206, 209 (2d Cir.
1987), we again consider the question in context. Defense
counsel objected to the question before it was answered, and
the district court instructed the jury that “a question put to
a witness is not itself [ ] evidence.” App’x at 1427. The jury
instruction together with the fact that Olangian never
answered the question are sufficient to cure “potential bias
posed by the question [ ].” United States v. McCarthy, 54
F.3d 51, 56 (2d Cir. 1995).
Third, Olangian argues that the district court erred by
giving an uncalled witness charge. But we afford district
court judges “considerable discretion” in deciding whether
to give a missing witness instruction, United States v.
Gaskin, 364 F.3d 438, 463 (2d Cir. 2004), and review a
refusal to do so for abuse of discretion and actual prejudice,
see United States v. Ebbers, 458 F.3d 110, 124 (2d Cir.
2006); United States v. Adeniji, 31 F.3d 58, 65 (2d Cir. 1994)
(“The decision whether to give a missing witness instruction
is within the discretion of the trial court, and its failure to
give the instruction rarely warrants reversal.”). Here,
Olangian fails to show that the district court abused its
discretion or that he otherwise suffered actual prejudice
under these facts.
(App. 2-3).
Notably, the issue upon which the Second Circuit’s resolution of the
Odney/Higgins issue hinged – the supposed “context” provided by the petitioner’s
opening statement – was not raised in the government’s briefs and was brought up by
them for the first time at oral argument.

-13-

Now, for the reasons set forth below, Petitioner seeks a writ of certiorari as to
the issues of (i) whether it was a deprivation of a fair trial for the government to elicit
testimony from Agents Higgins and Odney about his truthfulness and credibility,
and/or to request that he comment on their truthfulness; and (ii) whether, given the
imbalance that exists where an uncalled witness is a long-term government informant
who is unavailable to the defense, it was a deprivation of a fair trial for the district
court to instruct the jury that he was equally unavailable to both sides.
REASONS FOR GRANTING THE WRIT
I.

IT IS A DEPRIVATION OF A FAIR TRIAL WHEN THE PROSECUTION
ASKS THE DEFENDANT AND GOVERNMENT WITNESSES TO COMMENT
ON EACH OTHER'S CREDIBILITY AND CANDOR
1.

It is a fundamental tenet of a fair trial that the jury, and the jury alone,

is the arbiter of witness credibility. It is not for prosecution witnesses to comment on
the credibility of defense witnesses, thus putting an official stamp on the government’s
contention that those witnesses should not be believed. Nor is it fair or equitable to
place a defendant in a position where, in order to make his case, he or she will have to
directly call a prosecution witness a liar.
Both of these principles have been recognized by the very appellate court that
affirmed petitioner Olangian’s conviction. In United States v. Aquart, 912 F.3d 1 (2d
Cir. 2018), the Second Circuit found “significant error” in the government’s attempt to
elicit testimony from a case agent indicating that a defense witness “did not receive a
cooperation agreement because it was determined he was lying.” Id. at 33. The court

-14-

found that such inquiry "ran afoul of established law holding that cross-examination
cannot be used to direct the jury to trust the Government's judgment rather than its
own view of the evidence." Id., quoting United States v. Henry, 47 F.3d 17, 21 (2d Cir.
1995). While the court noted that it was proper to “elicit the simple fact that [the
putative cooperator] never had a cooperation agreement with the government,” id., it
was not permitted to go further and ask whether its agents found the cooperator to be
credible, because “[t]he concern... [is with] the law’s insistence that witness credibility
be left exclusively for determination by the jury.” Id. at 33-34, quoting United States
v. Truman, 688 F.3d 129, 143 (2d Cir. 2012).
Similarly, the Second Circuit has repeatedly held that a defendant may not be
cross-examined in a way that "compels him to characterize government witnesses as
lying." United States v. Bell, 531 Fed. App'x 117, 118 (2d Cir. 2013); United States v.
Richter, 826 F.2d 206, 208-09 (2d Cir. 1987). This rule, too, is a function of the fact
that “[d]eterminations of credibility are for the jury, not for witnesses.” Richter, 826
F.2d at 208; see also Truman, 688 F.2d at 143 (noting that "the Government
improperly asked Truman whether lay witnesses for the government were 'mistaken
or lying' and twice asked him if his son was 'lying'"). Moreover, where the witnesses
upon whose credibility the defendant is asked to comment are law enforcement officers,
such cross-examination may also serve "to improperly suggest that [the defendant's]
personal views of the police [as liars[ rendered his testimony less credible." Truman,
688 F.3d at 143. In other words, cross-examination such as occurred in the instant
case not only intrudes upon the jury's prerogative but has the effect of undermining the
-15-

defendant's credibility, and concomitantly enhancing the credibility of the law
enforcement officers, by pitting him directly against them.
2.

What happened in Aquart, Richter and Truman is precisely what

happened here. The government elicited testimony from not one but two government
agents, not only that Mr. Olangian did not receive a cooperation agreement (which
would have been permissible) but that the reason for this was that they, the agents of
law enforcement, determined him to be untruthful.

Moreover, the government

emphasized this testimony on summation, not merely inviting but directly urging the
jury to adopt Agents Higgins and Odney’s view of Mr. Olangian’s credibility. And at
the same time, they asked Mr. Olangian whether the agents were “making up” their
testimony – a question which, contrary to the Second Circuit’s opinion, was answered,
as evidenced by the trial court’s comment, “[i]t’s already in. I’ll permit it. Let’s go.”
(A1168) (emphasis added).
The Second Circuit’s attempts to minimize the significance of these intrusions
into the fairness of Mr. Olangian’s trial are unavailing. As to the questioning of Agents
Odney and Higgins regarding Mr. Olangian’s credibility, it is immaterial whether thier
testimony “was limited to describing Olangian’s demeanor and lack of candor during
his participation in post-arrest interviews.” (App. 2). The testimony found to be
improper in Aquart was “limited” to precisely the same thing – the agents’ assessment
of a defense witness’ credibility during his proffer statements. But the Aquart court
nevertheless found error, precisely because such testimony is not, as the Second Circuit
found in this case, “separate from his testimony as a trial witness” (App. 2). To the
-16-

contrary, credibility is credibility, and a contention that a person was not credible
during interviews with law enforcement will inevitably bleed over to the jury’s
consideration of his or her credibility as a witness. Juries are routinely instructed on
the principle of falsus in uno, as indeed the jury in this case was (A1439), and
therefore, consideration of a person’s credibility as a cooperator and his or her
credibility as a witness cannot be divorced from each other.
Indeed, if anything, Agents Higgins and Odney’s commentary on Mr. Olangian’s
credibility was more egregious than in Aquart, because (i) Mr. Olangian was not
merely a defense witness but the defendant himself, and (ii) unlike Aquart, the trial
court did not sustain an objection to the improper testimony, but instead, the
testimony remained in the record for the government’s use on summation. This was
a direct intrusion into the province of the jury which went directly to the heart of its
determination of guilt or innocence, and as such, deprived Mr. Olangian of a fair trial.
The Second Circuit also, citing this Court’s holding in Greer v. Miller, 483 U.S.
756, 765-66 (1987), found that the challenged testimony in this case was mitigated
because of its “context.” (App. 2). But while this finding was framed as an application
of Greer, it in fact did violence to Greer because the “context” at issue here did not in
fact mitigate the harm. In Greer, the “context” cited by this Court consisted of “a
single question, an immediate objection, and two curative instructions,” Greer, 483
U.S. at 766 – which itself is markedly different from this case, where the improper
testimony was neither stricken nor cured – whereas in the instant case, the “context”
cited by the Second Circuit consisted of ambiguous remarks made in an opening
-17-

statement days earlier.
Moreover, the remark at issue is itself taken out of context, because what was
actually said during the defense opening was as follows:
And when [Mr. Olangian] speaks to the United States
representatives he has in mind one major thing and that is
he’s been arrested, his wife assisted him in some of these
things. She is in big danger and exposed. And he speaks to
the agent and tells them mean things which you’ll hear
which were written out in and turned into reports which
we’re not contesting. But he arranges with the agents to be
able to speak to his wife and to be able to get her to some
degree of safety and continues to talk to the agents and tells
them a story which is not completely true.
But what he also does is he reaches out to his wife and asks
his wife to send him documents about the things he was
doing. And not only did he do that when he was in Estonia
but he is then brought to the United States to come into the
United States court system and he again asks to meet with
the government. And his lawyers turn over to the
government various documents including contracts that
purport to be contracts that would agree, if he wanted to go
forward with it, to sell and buy these various weapons,
given to the government by his own lawyers, not afraid to do
that. Not something you’re going to do if you’re guilty and
you’re going to turn over all the evidence.
(A68-69).

In other words, by focusing on one particular phrase of the opening

statement – “tells them a story which is not completely true” – the Second Circuit
elided (i) that, according to defense counsel, the “not completely true” story was told
only for a limited time and for the specific purpose of getting Mr. Olangian’s wife out
of Iran; and (ii) that defense counsel then went on to emphasize that Mr. Olangian’s

subsequent attempts at cooperation were genuine and candid. The agents’ testimony,
in contrast, was that Mr. Olangian’s untruthfulness was pervasive and that it did not
-18-

end when he came to the United States, because it ultimately prevented him from
obtaining a cooperation agreement.

There is a vast difference between defense

counsel’s limited discussion of stories that were “not completely true” and the agents’
bald conclusion that Mr. Olangian was a liar, and thus, this is not the type of “context”
that could mitigate the prejudice under Greer.5
And as to the government’s questioning of Mr. Olangian about whether the

agents “made up” a portion of their testimony, not only was the response “already in”
as stated above (A1168), but the only other factor cited by the Second Circuit in
declining to find error was a boilerplate instruction to the jury that “a question put to
a witness is not itself evidence” (App. 2-3), which again, did nothing to cure the
prejudice to petitioner in the moment.
3.

Moreover, the Second Circuit considered each of the above issues

separately rather than in combination. By permitting Agents Higgins and Odney to
testify regarding Mr. Olangian’s truthfulness and leaving in the record Mr. Olangian
being compelled to state whether the agents “made up” their testimony, the trial court
created a feedback loop in which, by compelling Mr. Olangian to characterize the
agents' credibility - a characterization which the prosecutor obviously hoped the jury
would disbelieve - the Government reinforced their testimony including their
comments on whether Mr. Olangian was credible.

Whether or not each of the

Petitioner again reiterates that this “context” was nowhere mentioned in the
government’s brief to the Second Circuit and was brought up for the first time at oral
argument, meaning that petitioner had no opportunity to brief the issue.
5

-19-

challenged rulings by itself deprived Mr. Olangian of a fair trial – which they did – the
prejudice of the two rulings together was certainly sufficient to do so.
4.

Finally, the errors at issue here cannot be dismissed as harmless and/or

immaterial to Mr. Olangian’s substantial rights. This is a case in which the evidence
of what Mr. Olangian did might be overwhelming, but the evidence of what he intended
was not. His defense - that he was a dissident in Iran and was participating in the
deal in order to undermine the Iranian government - didn't come out of thin air.
Numerous photographs were introduced into evidence showing that Mr. Olangian did
participate in the 2009 Green Movement protests and that he actively opposed the
Iranian security forces during those protests and intervened when other protesters
were being beaten. The fact that friends and family members of Mr. Olangian suffered
under the Iranian government, including being imprisoned and tortured, was also real.
Defendant was a person who really did have reasons to oppose the Iranian regime and
who had, just three years before the events at issue in the trial, put his money where
his mouth was by risking his life on Tehran's streets. This was not a defense that the
jury was automatically destined to reject. Accordingly, this Court should grant
certiorari on the issue of whether petitioner’s right to a fair trial was prejudiced.
II.

WHERE AN UNCALLED WITNESS IS A LONG-TERM GOVERNMENT
INFORMANT AND AN IMBALANCE IN THE ABILITY TO CONTACT HIM
EXISTS, AN "EQUALLY UNAVAILABLE" INSTRUCTION SHOULD NOT BE
GIVEN
1.

Petitioner was also deprived of a fair trial by reason of the district court

giving an uncalled-witness charge informing the jury that all persons whose names

-20-

were mentioned but not called as witnesses - including government informant Muboriz
- were equally available or unavailable to both sides.

This is, quite simply, not a

situation in which Muboriz was equally unavailable to the government and the
defense. Not only did Muboriz provide the information that started the investigation
in the first place, not only did his statements come into the trial via both hearsay
testimony and his participation in the videotaped meetings that were played to the
jury, and not only did information provided by him inform the government's conduct
of the investigation and its examination of witnesses, but the colloquy at the charge
conference made clear that the government was able to communicate with him and
receive a response as late as one week before trial. (A886-87). In contrast, defense
counsel could only request to contact Muboriz through government agents, and when
Muboriz' refusal to speak to counsel was relayed back through those same agents,
there was nothing more that defendant could do. Under these unique circumstances,
giving an "equal opportunity" charge misled the jury and deprived the defendant of due
process.
Again, the Second Circuit’s own prior holdings make clear the deprivation of a
fair trial that occurred in this case. The Second Circuit has held that "when [a]
witness's testimony would be material and the witness is peculiarly within the control
of [a] party" but the witness is not called, it is appropriate to instruct the jury that it
may draw an adverse inference against that party. United States v. Caccia, 122 F.3d
136, 138 (2d Cir. 1997), citing United States v. Torres, 845 F.2d 1165, 1169 (2d Cir.
1988). "In such circumstances, it is more likely than not that the testimony of an
-21-

uncalled witness would have been unfavorable to the party with such control, and a
jury may reasonably draw such inference." Id. at 138-39. Notably, for purposes of a
missing witness charge, the "control" element hinges on whether the party, "in
comparison with an adversary," lacks "meaningful or pragmatic access to the witness."
Id. at 139 (emphasis added).
Even where a witness is not under the control of a given party, the Second
Circuit has held that multiple options may be appropriate depending on the
circumstances. Such options include, in addition to the uncalled-witness charge given
by the district court in this case, "giv[ing] no instruction and leav[ing] the entire
subject to summations" and/or "instruct[ing] the jury that an adverse inference may
be drawn against either or both sides." Caccia, 122 F.3d at 139. The Caccia court held
that a witness who "had assisted the government as an informant and had expressed
unwillingness to speak to defense counsel before trial" was not meaningfully available
to the defense. See id. That is, of course, exactly the case with respect to petitioner
Olangian vis-à-vis Muboriz, precluding a finding that Mr. Olangian had equal access
to him – especially since unlike the informant in Caccia, Muboriz had not ended his
relationship with the government ahd indeed had spoken to government agents
approximately one week before trial. (A886-87). As such, the government should not
have been permitted to hide behind the claim that Muboriz was a "voluntary
informant" residing outside the United States to argue that he was equally unavailable
to them, when in fact the imbalance in the ability to communicate with and obtain
information from Muboriz was clear.
-22-

2.

But even if Muboriz were no longer “peculiarly within the control of [the

government]” at the time of trial, he was certainly not equally unavailable to both
sides. As discussed above and in the Statement of Facts, Muboriz had acted as a
government informant in this case for many months, providing the information that
led to the investigation beginning in the first place and taking part in
government-controlled communications and meetings. He was a background source
whose disclosures informed the way the government conducted the investigation and
how it questioned witnesses such as the investigating agents or Max Buchinsky. The
government was in continuing communication with him until at least a week before
trial, whereas defense counsel could not contact him directly and was refused contact
via government agents. Under those circumstances, for the district judge to tell the
jury that defendant had an equal opportunity to contact and call Muboriz, and that it
should draw no inference at all from the government's failure to call him, was simply
misleading.
What the district court should have done instead - assuming, of course, that this
Court rules out a missing witness charge, which it should not do - was to exercise the
first of the three options set forth in Caccia, namely to give no charge at all and let both
sides argue on summation regarding the inference (if any) to be drawn from Muboriz'
nonappearance. The Second Circuithas suggested several times that not giving an
instruction is the favored alternative. See United States v. Sorrentino, 72 F.3d 294,
298 (2d Cir. 1995) (better practice is to give no instruction and allow comment on
summation), overruled on other grounds, United States v. Abad, 514 F.3d 271, 274 (2d
-23-

Cir. 2008). This alternative - no instruction either way - would have allowed both sides
to make their arguments and would have permitted the jury to draw an inference
against the Government if it accepted petitioner’s argument, rather than forbidding the
jury from drawing any inference at all as happened here. Certainly, in the situation
at bar, the choice of what instruction to give should not have been, as the Second
Circuit’s decision in this case would have it, in the unbridled discretion of the district
court.
3.

Finally, the Second Circuit’s conclusion that Mr. Olangian could not point

to any prejudice from the district court’s instruction (App. 3) is simply untenable.
Muboriz' information permeated the case, both because he was the one who alerted the
DEA to Mr. Olangian in the first place and because he participated in the videotaped
meetings. And, just as much to the point, much of his information was hidden from
view. Not everything Muboriz said and did was documented: he had many ex parte
conversations with government agents and with Mr. Buchinsky, and while the videos
showed what he said during his actual meetings with Mr. Olangian, they do not show
the discussions that went on between him, Mr. Buchinsky, and the agents during the
overnight breaks between the meetings. He was an important, indeed key, witness
whose information was largely veiled and who, thanks to the government's failure to
call him, petitioner was unable to cross-examine. For the court to tell the jury that
they could draw no inference from this and that petitioner had an equal opportunity
to obtain information from him was prejudicial, not least because it foreclosed
petitioner from making any argument on summation that the government’s failure to
-24-

call Muboriz should weigh in his favor. Therefore, certiorari is wari'anted on this issue
as well.
CONCLUSION

WHEREFORE, in light of the foregoing, this Court should grant certiorari on all
issues raised in this Petition and, upon review, should vacate the judgment against
petitioner and remand for such remedies as may be appropriate.
Dated:

New York, NY
July 10, 2020

-25-

Case 18-1123, Document 92-1, 05/05/2020, 2831952, Page1 of 3

18-1123
United States v. Reza Olangian

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED
BY FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE
NOTATION “SUMMARY ORDER”). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY
OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York on the
5th day of May two thousand twenty.
Present:

ROSEMARY S. POOLER,
ROBERT D. SACK,
PETER W. HALL,
Circuit Judges.

_____________________________________________________
UNITED STATES OF AMERICA,
Appellee,
v.

18-1123-cr

REZA OLANGIAN, AKA SEALED DEFENDANT 1,
AKA RAYMOND AVANCIAN, AKA RAY,
Defendant-Appellant.
_____________________________________________________
Appearing for Appellant:

Johnathan I. Edelstein, Edelstein & Grossman, New York, N.Y.

Appearing for Appellee:

Jarrod Schaeffer, Assistant United States Attorney (Mollie
Bracewell, Anne M. Skotko, on the brief), for Geoffrey S. Berman,
United States Attorney for the Southern District of New York,
New York, N.Y.

Appeal from the United States District Court for the Southern District of New York (Preska, J.).

App. 1

Case 18-1123, Document 92-1, 05/05/2020, 2831952, Page2 of 3

ON CONSIDERATION WHEREOF, IT IS HEREBY ORDERED, ADJUDGED,
AND DECREED that the matter be and it hereby is AFFIRMED.
Defendant-Appellant Reza Olangian appeals from the March 14, 2018 judgment in the
United States District Court for the Southern District of New York (Preska, J.) sentencing him
principally to 25 years’ imprisonment. Following a jury trial, Olangian was convicted of one count
of conspiracy to acquire and transfer anti-aircraft missiles, in violation of 18 U.S.C. §§
2332g(a)(1), (b)(2), (c)(1), and 3238; one count of attempt to acquire and transfer anti-aircraft
missiles, in violation of 18 U.S.C. §§ 2332g(a)(1), (b)(2), (c)(1), 3238 and 2; and one count of
conspiracy to violate the International Emergency Economic Powers Act (“IEEPA”), in violation
of 50 U.S.C. §§ 3238 and 2. We assume the parties familiarity with the underlying facts, procedural
history, and specification of issues for review.
Olangian challenges his conviction on the following grounds: (1) that there was
prosecutorial misconduct during trial that warrants reversal because the government improperly
elicited from its law enforcement witnesses their belief that Olangian was untruthful during six
post-arrest interviews; (2) that Olangian was improperly asked during his cross-examination
whether law enforcement agents made up part of their testimony; (3) that it was reversible error
for the district court to have given an uncalled-witness charge in its jury instructions; (4) that his
Sixth Amendment right to counsel was violated when the court did not permit him to briefly
consult with counsel during his redirect examination; and (5) that it was reversible error for the
court to have denied his motion for a mistrial after testimony was elicited about a purported
previous arms deal not charged in the indictment.
On Olangian’s challenges to the testimony of the two law enforcement officers, we do not
find that the testimony deprived Olangian of a fair trial. “When a defendant contends that a
prosecutor’s question rendered his trial fundamentally unfair, it is important as an initial matter to
place the remark in context.” Greer v. Miller, 483 U.S. 756, 765-66 (1987) (internal quotation
marks and brackets omitted). Generally, the testimony of government witnesses “cannot be used
to direct the jury to trust the Government’s judgment rather than its own view of the evidence.”
United States v. Aquart, 912 F.3d 1, 33 (2d Cir. 2018) (internal quotation marks and brackets
omitted). But here, unlike in Aquart, Olangian’s attorney admitted in his opening statement that,
during the post-arrest interviews, Olangian told the agents “a story which is not completely true.”
App’x at 68. In addition, the agents’ testimony was limited to describing Olangian’s demeanor and
lack of candor during his participation in post-arrest interviews, which was separate from his
testimony as a trial witness. See Aquart, 912 F.3d at 34; see also Untied States v. Pujana-Mena,
949 F.2d 24, 33 (2d Cir. 1991) (finding no improper vouching where an agent “testified as to a
general DEA policy regarding an informant’s veracity . . . after defense counsel had repeatedly
suggested that [the agent] had not done enough to corroborate [the informant]’s information”).
As to Olangian’s second argument, while our precedent forecloses the government from
compelling a testifying defendant from stating that a government witness is lying, see United States
v. Richter, 826 F.2d 206, 209 (2d Cir. 1987), we again consider the question in context. Defense
counsel objected to the question before it was answered, and the district court instructed the jury
that “a question put to a witness is not itself [] evidence.” App’x at 1427. The jury instruction
2
App.
2

Case 18-1123, Document 92-1, 05/05/2020, 2831952, Page3 of 3

together with the fact that Olangian never answered the question are sufficient to cure “potential
bias posed by the question [].” United States v. McCarthy, 54 F.3d 51, 56 (2d Cir. 1995).
Third, Olangian argues that the district court erred by giving an uncalled witness charge.
But we afford district court judges “considerable discretion” in deciding whether to give a missing
witness instruction, United States v. Gaskin, 364 F.3d 438, 463 (2d Cir. 2004), and review a refusal
to do so for abuse of discretion and actual prejudice, see United States v. Ebbers, 458 F.3d 110,
124 (2d Cir. 2006); United States v. Adeniji, 31 F.3d 58, 65 (2d Cir. 1994) (“The decision whether
to give a missing witness instruction is within the discretion of the trial court, and its failure to
give the instruction rarely warrants reversal.”). Here, Olangian fails to show that the district court
abused its discretion or that he otherwise suffered actual prejudice under these facts.
With respect to his fourth argument, Olangian’s constitutional rights were not violated
when the district court denied his request to consult briefly with his counsel in the middle of
redirect examination. See Perry v. Leeke, 488 U.S. 272, 283-84 (1989) (“[A] trial judge has the
unquestioned power to refuse or to declare a recess at the close of direct testimony—or at any other
point in the examination of a witness . . . .”).
Last, we disagree with Olangian that the district court erred when it denied his motion for
a mistrial after certain testimony was elicited from a government witness regarding Olangian’s
uncharged conduct. We review the denial of a motion for a mistrial for abuse of discretion. United
States v. Deandrade, 600 F.3d 115, 118 (2d Cir. 2010). Trial errors asserted as grounds for a
mistrial “that do not affect the substantial rights of the defendant are harmless and do not compel
the reversal of a criminal conviction.” United States v. Mussaleen, 35 F.3d 692, 695 (2d Cir. 1994).
Considered in the context of the entire trial record, along with the fact that the testimony was
ultimately stricken and the district court subsequently provided a curative instruction, we conclude
that any error here was harmless.
We have considered the remainder of Olangian’s arguments and find them to be without
merit. Accordingly, the judgment of the district court hereby is AFFIRMED.

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

3
App.
3

